No.

Su; rsrna Court, U.S.
FILED

sm 15 mi
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Phillip J.

Walter, jr

— PETITIONER

(Your Name)
vs.
State of Texas

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Texas Court of Criminal Appeals

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Phillip 3. Walter TDCZI#020990B0

(Your Name)
B99 FM 632

(Address)
Kenedy, Tx 78119

(City, State, Zip Code)
None

(Phone Number)

I

QUESTION(S) PRESENTED
1) Is an Appellate Court duty bound to ensure that an appellant—Represented or Pro Se—is
afforded a full, fair, & meaningful appeal, to inlcude: Initial briefing, Rehearing &/or
En-Banc Reconsideration,
• Suggested Answer: Within the bounds of the law, an Appellate Budge must fulfill this
duty, until their jurisdiction expires.
2) When do the protections guranteed by the 5th Admendment (Due Process), on Direct Appeal,
end: After Initial briefings, or after Rehearing &/or En-Banc Reconsideration.
• Suggested Answer: Until the Mandate is issued, or after Rehearing or En-Banc.
3) If, on Motion for Rehearing, a, now Pro Se, litigant/appellant raises issues his appellate
Counsel should've raised, should the Appellate Court be mandated to hear & consider the­
se issues.
• Suggested Answer: To ensure the appellant is afforded a full & meaningful appeal, the
-\T7

Appellate Court should be mandated to hear these issues.

4) With the issue of deficient Appellate procedures known & proven (By this court), if rais­
ed on Appeal, should the Appellate Court resolve this issue by reseting applicable time
limits & order a Motion for New Trial be had, or pass on the issue altogether.
• Suggested Answer: Because Busitice demands meaningful procedures, the Appellate Court
should unquestioningly reset the appellate timelimits.
5) If on Motion for Rehearing of a direct Appeal, a now Pro Se appellant raises the issue
of his Appellate Counsel's deficient proformance denying him a meaninful Appeal, should
the Appellate Court be mandated to hear this issue, to order brefing, & consider: it.
• Suggested Answer: To avoid the appearence of the denial of Due Process, the-i Court shou­
ld order briefings on the issue & consider it on the merits.
6) If it is clear that a defendant cannot obtain a Fair Trial in the original Venue, has
the Trial Court abused his discretion by not changing the Venue on their own motion.
• Suggested Answer: Yes, the Trial Court abused it's discretion.
7) What is the,"or"should the, standard be for a Trial Court to decide that a fair Trial
cannot be had in a given venue.:
• Suggested Answer: The size of the city/county, the coverage given,& the opinionsrof
the empaneled jurists should be considered, & the prejudicial value
weighed.

II

Questions Cont'd
8) If, after a panel member—potential juror—is selected, said juror realizes that they
made an error & answered a voir dire question improperly/wrongfully—it would've disqua­
lified them for Hdias or impartiality—yet they are forced to serve anyway, has the defe­
ndant been denied a fair & impartial trial among his peers.
• Suggested answer: Yes, because said juror, with or without questioning, should've
been disqaulified.
9) Idas it Ineffective of counsel &/or an abuse of the Trial Court's discretion, to allow
multiple potential panel members, whom self admit bias/prejudices & impartialities, to
serve as jurors in a criminal proceding.
• Suggested answer: Yes, becaoae, once admitted, there can be no question as to (whether
said panel members would be fair & impartial.
10) Has the 6th Admendment Right to the Effective Assistance of counsel, on Direct Appeal,
been realized/afforded when the procedural scheme prsm/elritb Appellate counsel from being
effective &/or from presenting meritful issues.
« Suggested Answer: No, because if the Appellate Counsel is unable to represent his
client in a meaningful way, the appointment is a farse.

Ill

LIST OF PARTIES

[Y^ All parties

appear in the caption of the case on the cover page.

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Trial Court: 42nd District Court, Callahan County, T.x:, Cause # 7138,
Appellate Court: 11th District, Eastland Tx, Cause # 11-16-00338-CR
Court of Criminal Appeals: Petition for Discretionary Review, Cause # PD-D130-20

IV

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

k

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

13

INDEX TO APPENDICES
APPENDIX A Opinion of 11th District Court of Appeals

APPENDIX B Trial Court's order convicting Appellant

APPENDIX C ^rc*er denying review of_Petition of Discretionary Review

APPENDIX D ^rder denying Motion for Rehearing of PDR:

APPENDIX E Extension to file Certificate of Certiorari

APPENDIX F CCPiArt. 31.01. Change of Venue...On Court's Own Motion.
Appendix

G

Order

denying motion for rehearing

Appendix

H

Relevant portions of the Court's records

Appendix

I

Full printout of case "Griffith v. State, 507 5.Id.3d 720

Appendix

0

Full printout of case "Ex parte Garcia, 486 S.Id.3d 565

V

Index of Authorities

Uhat

Where

Strickland v. Washington, 104 S.Ct 2052 (1984)

Z 3

Evitts v. Lucey, 105 S.Ct 830 (19B5)

3, 6, 7, 9

Irvin v. Douid, 81 S.Ct 1639 (1961 )

3

U.S. v. Pajooh, 143 F.3d 203 (C.A.S(Tex) 1998)

3

U.S. v. Fastow, 292 F.Supp.2d 914 (S.D.Tex 2003)

3

Brimage v. State, 918 S.W.2d 466 (Tex.Crim.App. 1996)

4, 10

Bonilla v. State, 933 S.W.2d 538 (App.1 Dist 1995)

5, 12

U.S. v. Cronic, 104 S.Ct 2039 (1984)

6

Avery v. Alabama, 308 U.S. 444, 60 S.Ct 321

6

Martinez v. Ryan, 566 U.S 1, 132 S.Ct 1309 (2012)

6, 7

Griffith v. State, 507 S.W.3d 720 (Tex.Crim.App. 2016)

6, 7

Ex parte Garcia, 486 S.W.3d 565 (Tex.Crim.App 2016)

7

Cooks v. State, 240 S.W.3d 906 (Tex.Crim.App. 2007)

7

Trvino v. Thaler, 133 S.Ct 1911 (2013 U.S. Lexis 3980(2013)

7, 8

Robinson v. State, 16 S.W.3d 808 (Tex.Crim.App. 2000)

8

Chambers v. Florida, 309 U.S. 227 (1940)

9

Lewis v. State, 654 S.W2d 483 (Tex.App-Tyler 19B3)

9

Connecticut v. Johnson, 460 U.S. 73, 103 S.Ct 969 (1983)

9

vaughn v, State, 833 S.W.2d 1B0 (Tex.App.Dallas 1992)

9

Anderson v. State, 633 S.W.2d 851 (Tex.Crim.App. 1982)

9

Yee v. Escondido, 112 S.Ct 1522, 503 U.S. 519 (1992)

10

Illinois v. Gate, 462 U.S. 213, 103 S.Ct 2317 (1983)

10

falter v. State, 209 S.W.3d 722 (Tex.App.-Texarkana 2006)

11

Bath v. State, 951 S.W.2d 11 (Tex.App. Corpus Christi 1997)

11

Aranda v. State, 738 S.W.2d 702 (Tex.Crim.App. 1987)

11

Cook v. State, 667 S.W.2d 520 (Tex.Crim.App. 19B4

11

Wentworth v Meyer, 839 S.W.2d 766 (Tex. 1992)

12

Pfifer v. Apprasial District, 45 S.W.3d 159 (Tex.App.-Tyler 2000)

12

Perkins v. State, 905 S.W.2d 452 (App. 8 Dist 1995)

12

Rochell v. State, 256 S.W.3d 315 (2008 Tex.App.Lexis 4073)

1 21 2

Hughes v. State, B78 S.W.2d 142 (Tex.Crim.App' 1990)

12

Boyle v. State, 820 S.W.2d 122 (Tex.Crim.App. 1991)

12

VI

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__ c to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[vf is unpublished.
The opinion of the 11th District Court of Appeals
appears at Appendix__a - to the petition and is
[ ] reported at_______________________________________; or,
|Vf has been designated for publication but is not yet reported; or,
1 1 is unpublished.
1.

court

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

M For cases from state courts:
The date on which the highest state court decided my case was □5/06/2020
A copy of that decision appears at Appendix
M A timely petition for rehearing was thereafter denied on the following date:
QB/19/2020__________and a copy of the order denying rehearing
appears at Appendix
Ml An extension of time to file the petition for a writ of certiorari was granted
(date) on Q3/19/2020
to and including DT/16/2020
(date) in
Application No.__ A_____
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
6Th Admendment
1) The Effective Assistance: of Trial Counsel (Strickland v. Washington, 104 S.ct 2052 (19B4)
2) The Effective Assistance of Appellate Counsel (Evitts v. Lucey, 105 S.ct B30 (1985)
5Th Admendment
3) Right to a Fair Trial (Irvin v. Domd, B1 S.ct 1639 (1961)
4) Right to a meaningful Direct Appeal (U.S v. Pajooh, 143 F.3d 203 (C.A.5(Tex) 199B)

Statutory Provisions
5) Vernons Texas Code, CCP, Art 31.01 ("Venue change...on the court's motion") —See Append­
ix for full citation.

3.

STATEMENT OF THE CASE
Though not presented in question format—presented as issues/complaints—the questions
presented, in the instant petition, were presented & considered/denied by the lower State
Court's in the following manners:
• Questions 1,2,3,10: Presented in a motion for rehearing, at ground 3, on Direct Appe­
al. Court Affirmed.
> Presented in a Petition for Discretionary Review (PDR) & Reheari­
ng of the same, at grounds: "3,4, &5" & "4 & 5". respectively.
Court denied review.
• Question 4: Presented in the same manner of questions "1,2 & 3, & also at ground 4
of Admendment of motion for rehearing of Direct Appeal. Court Affirmed.
• Question 5: Presented in a motion for rehearing, at ground 3, on Direct Appeal. Court
Affirmed.
• Questions 6 & 7: Presented in motion for rehearing, at ground 2, on Direct Appeal.
Court Affirmed.
> Presented in a PDR, at ground 2. Court denied review.
•' Questions B & 9: Presented in a motion for rehearing, at ground 1, on Direct Appeal.
> Presented in a PDR, at ground 1. Court denied review.
Pursuant to Sup.Crt.Rule 14(g)(i), the questions presented herein, are properly before the
Court.
Statement
The instant "Statement of The Case", shall focus primarily on the questions presented,
though, per Appendix A "Opinion of 11th District Court of Appeals" pp. 2-5, further—though
contested—"Background Facts", or information, may be located.
POU, alleges, that, during his Voir Dire jury selection, more than sufficient evidence
was presented, by his own counsel & multiple members of the panel, that, "Evidence of inflamitory, prejudicial Pre-Trial publicity that so saturate[d] the community as to render it
virtually impossible a fair trial by an impartial jury drawn from I the community" U.S. v.
Fastow,292 F.Supp.2d 914 (S;D.Tex 2003), was present. However, though POliJ's counsel clear­
ly knew of such prejudices (See RR2/172:15-1B;93-94:1 B-20,22;137-13B:12-14,16-1B,21) he
still refused to even attempt a venue changej However, though clearly authorized by CCP.Art. 31.01 (See APP. F), to order a change of venue on it's own motion, the Trial Court fail­
ed to do as such, though the evidence was clear & undisputable. Brimage v. State, 91B S.U.
2d 466 (Tex.Crim.App 1996). Therefore, though sufficient evidence that implicated another
party having committed the murder was presented (Reasonable doubt), retribution was needed
& POD was made the sacrificial lamb. Emotions ran high & he was denied a fair trial.
4

Statement Cant'd
Further, during, & shortly thereafter, said Voir Dire, panel members: Poole & Jared Loper, informed PJlJ's Trial Counsel, the State, & the Trial Court, that they mere decidedly
impartial (See RR2/94: 1-3, 6-7; 148:13) because the victim was a police officer (Mr. Poole) & that, because he knew the family & that because the family member uias in the courtroom
, which made him feel totally uncomfortable, he felt he couldn't possibly be fair & impart­
ial (See RR2/164: 1-3, 7-8) (Mr. Loper), however, both were selected & forced—against Mr.
Loper's wishes—to serve on the jury.
Though PJld was appointed counsel (His same Trial Counsel) on Direct Appeal, this attor­
ney, Jeffrey A. Propst, failed to raise multiple valid, substantial issues:
1) Trial Counsel's failure to challenge for cause multiple potential jurors,
2) Trial Counsel's failure to move for a venue change,
3) The Trial Court's failure to move for a venue change on it's awn motion,
4) The unresonably deficient Appellate procedures., &
5) The unresaonably deficient Motion for a New Trial procedures,
to list but a few.
Instead, said counsel raised but

single, meritless issue: Improper law of parties

instructions. (See App. A. pp.5)
However, having been affirmed by the Appellate Court, PJliJ was allowed to obtain his Ap­
pellate records & to conduct his own legal research & investigation, thiereby, he found sub­
stantial evidence that he'd been denied a fair trial. The failure of PJW's Appellate Couns­
el to discover & to raise such grounds/issues, effectively denied him the opportunity to have them heard by the court in the first instance; initial briefs.
However, because the Appellate Court's have the full discretion to hear new issues/grounds in a motion for rehearing (See Bomilla v. State, 933 S.liJ. 2d 538 (App.I.Dist 1995),
PJU took the initiative of filing said motion, raissechgc these issues; before his Appellate
time limits expired. Even as such, though properly before the court, said court failed to
order rebriefing, thus, it cannot be concluded that the court consdidered said issues.
(See App. G).
Subsequently, having been denied said review, PJLJ filed for a Petition for Discretion­
ary Review, contesting said denial & those issues, only, to be denied such a review. (See.
App. C & D).
The instant petition is therefore being filed.

5

REASONS FOR GRANTING THE PETITION
In Evitts v. Lucey, 105 S.ct 830 (19B5), this court concluded & confirmed that an Appe­
llant, on direct appeal of his conviction, was entitled to the Effective Assistance of coun­
sel, a Federally guaranteed 6th Admendment protected right. However, unlike U.S v. Cronic,
104 S.ct 2039, 2044 (1984), where the court found that, "If no actual assistance for the ac­
cused's defense is provided, then the constitutional guarantee has been violated. To hold otherwise "Could convert the appointment of counsel into a sham &■nothing more than a formal
compliance with the constitutions requirement that an accused be given the assistance of co­
unsel. The constitutions gurantee of assistance of counsel fcannot:] be- [satisfied] by mere
formal appointment." Avery v. Alabama, 3D8 U.S. 444, 46, 60 S.ct 321, 22", this court has not decided whether or not an Appellant's right to the effective assistance of counsel, on
Direct appeal, has been realized, if the procedural scheme of the court prevents such effec­
tiveness. See Martinez v. Ryan, 566 U.S. 1, 132 S.Ct 1309, 17-18 (2012), "explaining that the right to the effective assistance of counsel at trial is a "bedrock principle in our jus­
tice system" without which a person "cannot be assured a fair trial""(citations ommitted).
Surely, the court would agree the same can be said about the direct appeal.
I
The petitioner shows the courts as follows, "For poor people, the Texas scheme for add­
ressing claims of ineffective assistance of counsel is broken." Griffith v. State, 507 S.U.
3d 720 (Tex.Crim.App.2016), "Legal scholars know this, & the Supreme Court has essentially
acknowledged this. Instead of addressing this problem, some people will pivot & rationalize
that Texas is doing better than [they] used to do providing counsel for indigent defendants.
...The point is that indigent defendants in Texas ordinarily do not have a viable procedural
avenue for challenging the ineffectiveness of their trial attorneys. This is a problem that
is unique to the poor in Texas because affluent people, who can afford to hire habeas couns­
el, have an adequate procedural avenue for challenging the ineffectiveness of trial counsel
through post conviction applications. A poor person, of course, like a rich person, can file
his habeas application...but he will almost certainly fail, because, as a pro se litigant, he

6

Reasons Cont'd
is unlikely versed in the pleading & proof requirements for obtaining habeas relief. Bee Ex
parte Garcia, 486 S.W.3d 565 (Tex.Grim.App 2016)(Mem. op.)(Alcala, 0., dissenting); see al­
so Martinez v. Ryan, 566 U.S. 1, 132 S.Ct 1309, 17-18 (2012)(observing that,"[w]ithout the
help of an adequate attorney, a prisoner will have difficulities vindicating a substantial
ineffective assistance of trial counsel claim".Yet, this Court continues to do nothi­
ng to fix this broken process. This Court happily sings that everything is alright, which,
of course, it is, for non-indigent habeas applicants who can afford to hire counsel....und­
er the current construction of the Texas Rules of Appellate; Procedure, the thirty day dead­
line found in Rule 21 .4 is a strict deadline, & a trial court lacks jurisdiction to consi­
der any motion-for-new-trial claim not raised prior to that deadline. See Tex.R.App.P.21.4.
...A person convicted of a crime has a 6th Admendment right to effective assistance of cou­
nsel during the motion for new trial & appellate process. Cooks v. State, 240 S.L). 3d 906,
911 (Tex.Crim.App. 2007); Evitts Supra. But there is no guranteed right to appointed couns­
el at the post-conviction habeas stage for non-death-penalty cases. Thus, under the current
interpretation of the 6th Admendment, the only time that a criminal defendant is guranteed
counsel & has an opportunity to litigate a claim of ineffective assistance of trial counsel
is during the: motion for new trial & appellate process.... On a broader level, this case...
highlight[s] the catch-22 most indigent defendants face. Regardless of whether a litigant
challenges ineffective assistance of counsel on direct appeal, on the one hand, or on habe­
as, on the other hand., the procedural scheme he faces is designed for him to fail, unless,
of course, he can afford to hire counsel to represent him." Griffth Supra.
The Petitioner wishes to point out that, the majority of the foregoing, was a verbatim
citation of Griffith Supra. The reason for such a lengthy reference was to allow this court
to understand that

justices of the Court of Criminal Appeals, as well as this court, have

both blasted the harmful procedural scheme set forth in the appellate rules in Texas. See
Martinez v. Ryam, 566 U.S. 1, 132 S.Ct 1309, 1317 (2012; Trevino v. Thaler, 133 S.Ct 1911,
(2013 U.S. Lexis 3980(2013)) "The structure & design of the Texas system, in actual operat-

7

Reasons Cont'd
ion, however, makes it virtually impossible for an ineffective assistance claim to be presentd on direct review. See: Robinson v. State, 16 S.W.3d BOB, 10-11 (Tex.Crim.App. 2000)"
Further, this court also concluded that, "Texas Courts ineffect have directed defendants to
raise claims of ineffective assistance of trial counsel on collateral, rather than on dire­
ct review." Trevino Supra at 1919; thus making it clear that the Texas Court's of Appeals,
generally, will not consider issues of ineffective assistance of trial counsel.
The instant case affords this court the opportunity to formally & finally address &
resolve this deficient procedures issue. The instant case further allows this Court to dec­
ide whether an appeal with deficient procedures designed to prevent an appellant's appella­
te counsel from being effevtive satisfies the appellant's 6th Admendment right to counsel,
or if such procedures would have denied that appellant such right & what the proper remedy
should be.
Though not expressed in depth herein (briefing of these issues would have to be order­
ed) the issues expressed to be prevented from being raised were:
1) Trial Counsel's failure to move for a New Trial,
2) Trial Counsel's failure to move for a Bill of Exceptions,
3)Trial Counsel's failure to request the Trial Court to narrow the scope of
certain admitted evidence,
4) Trial Counsel's failure to throughly investigate,
5) Trial Counsel's unreasonble deficient & unknowledgable examination/crossexamination of witnesses,&
6) Trial counsel's statements effectively erroded the defendant's presumpt­
ion of innocence right. ..
PJU , Contends, that, inregards to the above issue, that by the Court of Criminal
Appeal's refusal to consider the issue of deficient Appellate procedures denying an Appell­
ant the effective assistance of Appellate Counsel Guranteed by the 6th Admendment, that th­
ey have,.therefore:, effectively, "decided an important Federal question in a way that conflB

Reasons Cant'd
icts with relevant decisions of this court." Sup.Crt.R.10(c). See Evitts Supra; by allowing
the practice to continue, on it's watch, unabatted.
Next, this Court has found, repreatedly, that there is a, "Fundamental idea that [No]
man's life, [Liberty] or property be forfeited as criminal punishment for violation of the
law until there had been a charge fairly made & fairly tried in a public tribunial free of
[prejudice, Passion & Excitement] & Tyrannical power." Chambers v. Florida, 3B9 U.S. 227,
636 (1940), & that,. "Every Defendant in a criminal; case is [Guaranteed] a fair trial by an
[Impartial] jury by'both the Texas Constitution & by the United States Constitution.!' Lewis
v. State, 654 S.W.2d 483 (Tex.App-Tyler 1983) Further, it can be found that, "There are so­
me Constitutional .Rights so basic to a [Fair Trial] that their infraction can [Never] be treated as [Harmless] error." Connecticut v. Dohnson, 460 U.S 73.74, 103 S.Ct 969 (19B3); which, PBliJ, contends, to be, "Tried in a public tribunial free of [Prejudice, Passion [&] Excitement]" Chambers Supra, is clearly one of those Rights basic to a fair trial. Oohnson
Supra. Except , as will be shown, the foregoing was the very last thing wanted by the judi­
cal members charged with ensuring such Right is secured.
However, in the instant case, two potential jurors, Poole & Oared Loper, both expressed
strong reservations & inabilities to being able to preside fairly & without impartiality.
(See RR2/94:1-3, 6-7; 164:1-3, 7-8). However, inrespect to Mr. Loper, instead of dismissing
him once his clear impartiality was made known (See RR3/57:17-18'"I do [NOT] believe I can
[Continue]-& be [Fair]"),\ the Court decided it would be better to question his integrity, wherein, Mr. Loper, in defense of said integrity, conceded, "I don'tywant to take anymore of
yourrtime. I appalogize." See RR3/64:2-3; not even remotely close to a resolution to be fa­
ir & impartial. See Vaughn v. State, 833 5.IB.2d 1B0, 84 (Tex.App.-Dallas 1992) "Bias exist
as a matter of law when a juror [Admits] he is [Biased] for or against a defendant. Anders­
on v. State, 633 S.U.2d B51, 54 (Tex.Crim.App. 1982)
The foregoing issue raises the question whether the Trial Court would Be considered to
have abused Their discretion by deciding to go on to question Mr. Loper, after he expressed

9

Reasons Cont'd
his inability to be fair & impartial (Not raised/presented herein since said issue was not
raised, specifically, in a lower state court—See.Yee v. Escondido, 112 S.Ct 1522, 31, 503
U.S 519, 33 (1992) "In reviewing judgements of State Courts under the Ourisdictional Grant
of 28 U.S.C § T257, the Court has, with [Very Rare Exception!] refused to consider petitio­
ner's claims that were not raised, or addressed, below. Illinois v. Gate, 462 U.S 213, IB20, 103 S.Ct 2317, 21-23 (1983)), though Question number 8 "Has the Defendant been denied
a fair &rimpiartial trial among his peers." is easily & clearly appropriate, thus, before
the Court.
However, the foregoing issue was only further aggravated where considerably more than
a Scintilla's worth of undisputed evidence was presented by, not only POU's own Trial Coun­
sel, but by multiple potential jururs of the Court, as well.
Substantial evidence of the foregoing maybe found firmly in the Court's records at the
following location:
> RR/172:15-18,
> RR2/93-94:1B-20,?22; 1-3, 6-7,
> RR2/94-95:22-25; 13,
> RR2/95-96:25; 1-6,
> RR2/97-9B:16-20, 22-25; 1-2, 21-22,
> RR2/99-100:12-13, 21-25; 1-5, 5-ffif
> RR2/101:6-7, 23-24,
> RR2/1 02:9-1 0, 12-14, 16-17,
> RR2/137-138:12-14, 16-18; 21; 6, 10, &
* RR2/132=1 36:21-25; 1-5, 6-18; 14-23; 1-2, 14-21.
However, though it has been clearly established that, "When the legislature modified
the language of Art. 560, in enacting Art 31.01 (See App. F), it's purpose was evidently
to [Require] a Court, once satisfied that a [Fair Trial] cannot be had, to...change [the]
Venue." Brimage v. State, 91B S.Ill.2d 466 (Tex.Crim.App 1996), which has repeatedly been rel-

10

Reasons Cont'd
inforced by other Texas Court's of Appeals: Walter v. State, 209 S.W.3d 722 (Tex.App.-Texa­
rkana 2006); Bath v. State, 951 S.kJ.2d 11 (Tex.App.-Corpus Christi 1997); Aranda v. State,
738 S.ld.2d 702 (Tex.Crim.App 19B7); Cook v. State, 667 S.LJ.2d 520 (Tex.Crim.App 19B4, the
Trial Court, in the instant cause, failed to utilize this authority &, instead, allowed the
cause to proceed. Allowing a clearly emotional jury to be empaneled, thus denying;-P3U his
Right to a fair & impartial Trial.
Now, however, to date, no Court, to include the Texas Court of Criminal Appeals, norrthis Court, has thus far;addressed &/or considered the issue of said Trial Court's failure
to utilize said discretion, once sufficient evidence was before it, that such a venue change
was needed. See U.'T7C.A.CCP.Art.31 .01 .
PJUJ brings to the Court's attention that he acknowledged that this particular issue
possibly needed to be decided by the Court of Criminal Appeals, in his motion for Rehearing
on Direct Appealy for which both the Appellate Court & Highest State court refused to cons­
ider the issue, leaving only this Court to decide what the propery minimal, standard of the
Trial Court's discretion must be & how it ’should be applied when deciding whether or not to
order a change of Vebue, on his own motion.
P3U, concedes, that Art. 31.01, is, infact, a State law, however, this law was enacted to
protect Federally Guaranteed Constitutional Rights to a fair trial—5th & 6th 7 14th Admendments—therefore, where the State Courts have considered the proper way to enforce the pr­
oper use of these powers, the only Court left to consider such a question is this Court.
The final matters to be considered pertain to the Appellate Court's discretion to hear
new issues raised for the first time on a motion for Rehearing. P3W, contends, it can be
assumed that where the Appellate Court failed tD order a rebreifing on newly presented iss­
ues raised on motion for rehearing &j,instead simply denied the motion, on it's face (See
App.

G), that said Court did not fully, if at all, considemthese new issues on their mer-

its.v
P3U, concedes, that, generally, "the Sole purpose of a motion far rehearing is to prov-

11

Reasons Cont'd
ide the Court an opportunity to correct any errors on issues already presented."Wentworth
v. Meyer, 839 S.W.2d 766, 78 (Tex.1992) "& that, a motion for rehearing does not [On It's
Face] afford a party an opportunity to raise new issues" Pfifer v. Appraisal District, 45
S.Id.3d 1 59, 66 (Tex.App.-Tyler 2000), however, the instant cause highlights an Appellant
not willing to simply sit around & wait, to allow his Appellate Counsel to totally deny him
the effective assistance he ' s Garuannted ?&., instead, emphasizes an Appellant doing his abs­
olute Due Diligence in protecting his Right to a fair Appeal of convictions that simply should not be. Due•Diligence enough to step up & to raise these matters even before his Ap­
pellate time limits expired. Due Diligence that was/is fully supported by the Law.
First, see Bonilla v. State, 933 S.W.2d 538 (App 1. Dist 1995), "Whether [A] new grou­
nd raised for [the] [First Time] on [Motion for Rehearing] is [A] decision left to the so­
und Discretion of [the] Court of Appeals.!-' Therefore, it can no-longer be argued, "The Co­
urt pf Appeals [Has] Discretion whether to consider [New] matters raised in...[Motion for
Rehearing]" Perkins v. State, 905 S.W.2d 452 (App. 8 Dist 1995).
To reaffirm the foregoing, the Texas Court of Criminal Appeals has determined that, if
a party raises a new ground for the first time on a motion'for rehearing, the decision to
consider the matter is, "left to the sound discretion of the Appellate Court." Rochell v.
State, 256 S.W.3d 315, 29-30 (2008 Tex.App.Lexis 4073). The Court further held that, "the­
re are times when "as justice requires": or "in the interests of justice" an Appellate Court
may consider a motion for rehearing to decide an issue not presented in the original brie­
fs." Hughes v. State, 878 S.LJ.2d 142, 51 (TEX.CRIM.App 1990)(Citing Boyle v. State, 820
S.lil.2d 122, 41 (Tex.Crim.App 1991).
Wherefore, P0W, asks, this Court; is it not [In The Interests of Justice] that an App­
ellant's Direct Appeal Right & his Right to the Effecftive Assistance of Appellate Counsel
be protected? Are vithese not matters that should fall well within the considerations of
"In The Interests of JusticeJ'ibid.
Wherefore, PJW presents each of the listed questions, with his reasons for this Court
12

Reasons Cont'd
to grant a full review of the issues presented herein'.
Prayer
I pray this Court, Grants a full review of the issues presented herein.
I Pray this Court, if it orders briefing, also orders Counsel to be appointed to PCD.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
i juu. 'i3 j) t/Z/cTF.it X$- -'ftO kin fiZCrfloro

Date:

l( t Zoz(

13

